                          United States Department of Agriculture
                                 Office of Inspector General
                                  Washington, D.C. 20250




DATE:         April 19, 2012

AUDIT
NUMBER:       50501-0001-12

SUBJECT:      USDA's Configuration, Management, and Security over Domain Name System
              Servers


The Office of the Chief Information Officer (OCIO) coordinates information technology within
the Department. Like other organizations, USDA and its agencies rely on Domain Name System
(DNS) servers to route internet traffic through the telecommunications network. DNS is a data
communication mechanism that translates numerical addresses into easy-to-understand website
names, and is susceptible to vulnerabilities. We conducted an audit to evaluate the Department’s
management and security controls over DNS. We found that USDA’s security over DNS did not
meet all required standards. OCIO generally agreed with our recommendations and is taking
action to correct the issues.

This report is not being publicly released due to the sensitive security information it
contains.
